<html>
<title> - LIBYA'S TERRORIST DESCENT: CAUSES AND SOLUTIONS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






                      LIBYA'S TERRORIST DESCENT: 
                          CAUSES AND SOLUTIONS

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 27, 2016

                               __________

                           Serial No. 114-225

                               __________

        Printed for the use of the Committee on Foreign Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

21-676PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001  

































                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           WILLIAM KEATING, Massachusetts
DARRELL E. ISSA, California          BRAD SHERMAN, California
PAUL COOK, California                BRIAN HIGGINS, New York
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
REID J. RIBBLE, Wisconsin            ROBIN L. KELLY, Illinois
LEE M. ZELDIN, New York






















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Federica Saini Fasanotti, Ph.D., non-resident fellow, Center for 
  21st Century Security and Intelligence, Foreign Policy Program, 
  The Brookings Institution......................................     5
Mr. Thomas Joscelyn, senior editor, Long War Journal, Foundation 
  for Defense of Democracies.....................................    12
Mr. Benjamin Fishman (former Director for North Africa, National 
  Security Council)..............................................    27

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Federica Saini Fasanotti, Ph.D.: Prepared statement..............     8
Mr. Thomas Joscelyn: Prepared statement..........................    14
Mr. Benjamin Fishman: Prepared statement.........................    27

                                APPENDIX

Hearing notice...................................................    46
Hearing minutes..................................................    47
 
                      LIBYA'S TERRORIST DESCENT: 
                          CAUSES AND SOLUTIONS

                              ----------                              


                      TUESDAY, SEPTEMBER 27, 2016

                     House of Representatives,    

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:15 p.m., in 
room 2200 Rayburn House Office Building, Hon. Paul Cook 
presiding.
    Mr. Cook. Subcommittee will come to order. Without 
objection, all members may have 5 days to submit statements, 
questions and extraneous materials for the record subject to 
the length limitation in the rules.
    Since the U.S.-led NATO intervention in 2011, Libya has 
completely spiraled out of control and has become a regional 
and international security threat.
    Five years ago, the regime of Libyan dictator Muammar 
Gaddafi helped us fight against international terrorism. This 
is not to say that Gaddafi was a good guy. He was a ruthless 
dictator who sponsored terrorism in the 1980s.
    But Gaddafi eventually realized that he was the target of 
terrorists himself and he changed course to side with us 
against the cancer of terrorism.
    By 2008, U.S. military leaders were calling Libya a top 
U.S. ally in combating transnational terrorism. Fast forward to 
today, and Libya is a virtual incubator of terrorist groups, 
hosting all stripes of jihadi organizations including ISIS and 
al-Qaeda.
    Unfortunately, it was U.S. policy that transformed Libya 
into the complete failure that it is today. 2011 we decided to 
intervene in Libya and establish no-fly zones to aid Libyan 
rebels plotting against Gaddafi.
    Under the safety of the no-fly zone we imposed, Islamic 
terrorist groups long subdued under Gaddafi's regime sprung up, 
amassed weapons, training and military experience.
    Gaddafi was ultimately killed in October 2011. Within days, 
NATO and U.S. forces packed up and left Libya to its own 
devices.
    It appears that our own Libyan policy at the time was to 
remove Gaddafi. There was little planning regarding what to do 
the day after.
    Gaddafi's ouster unleashed chaos in the country. Long-
simmering political, regional and ethnic divisions suddenly 
emerged and set Libya on a path toward disaster.
    The country has never recovered. Even the administration 
says that Libya failed due to our lack of forward thinking. 
Earlier this year, the President admitted that his 
administration did not have a plan for post-Gaddafi Libya and 
he said this was his biggest regret as President.
    Dangerous terrorist groups popped up almost immediately to 
fill the power vacuum created by NATO's intervention. Ansar al-
Sharia, al-Qaeda's affiliate in Libya, emerged shortly after 
Gaddafi's ouster began, deeply entrenching itself in Libya's 
society by providing social services.
    But this did not--this organization did not stop with 
building schools. They recruited, they armed and trained 
terrorist fighters intent on carrying out the group's ultimate 
goal--imposing Islamic law on the country.
    These fighters were among those who attacked the U.S. 
diplomatic compound in Benghazi in 2012, killing Ambassador 
Christopher Stevens and three of his colleagues.
    By 2014, the security situation in Libya had gotten even 
worse. It became apparent that the country's warring factions 
were not going to unite anytime soon.
    Sensing an opportunity, ISIS announced the establishment of 
a Libyan affiliate at the end of 2014 and soon began 
consolidating power around the coast city of Sirte.
    From there, ISIS quickly expanded east, west, and south. 
Terrorists set up checkpoints along the coast and within over a 
year ISIS managed to hold over 200 kilometers of territory 
along the Libyan coast.
    By the beginning of 2016 reports indicated that ISIS was 
redirecting recruits and even senior leaders to Libya. It 
appeared that ISIS was creating what many called a fallback 
caliphate where it could retreat to in case it was pushed out 
of Syria and Iraq.
    Pentagon estimates suggest the group's ranks in the country 
quickly swelled to nearly 7,000 fighters. It became apparent 
that the U.S. needed to target ISIS in Libya as well as in 
Syria and Iraq.
    In August 2016, the U.S. expanded what was until then a 
very limited air strike campaign with the intention of 
dislodging the terrorists from their stronghold of Sirte.
    By September, the U.S.-backed operation pushed into the 
last ISIS-held areas of Sirte and freed the city from the reign 
of terror. But this by no means defeated ISIS in Libya.
    Libya remains an ideal foothold for terrorist groups of all 
kinds and ISIS' removal from Sirte will not be the end of the 
group. Until we can devise a truly comprehensive long-term 
strategy to stabilize Libya and defeat the terrorists hiding 
there, Libya will continue to threaten regional and 
international security.
    Treating the symptoms while ignoring the underlying disease 
will not solve our problems. ISIS, al-Qaeda, and others will 
continue to operate at Europe's doorstep and menace the free 
world. The time has come for America to lead again. Until we 
do, the world will remain at risk.
    I will now turn to the ranking member, Congressman Keating 
from Massachusetts, for his opening statement.
    Mr. Keating. Thank you, Colonel. I'd like to thank Chairman 
Poe for calling this hearing and we share a concern for the 
situation on the ground in Libya and I appreciate the attention 
we are affording the issue.
    I'd also like to thank my colleague, Colonel Cook, for 
joining us as chair today as well as our panel for joining us 
to discuss the topic at hand.
    The situation in Libya remains very fluid and complex. 
While the topic of this hearing will focus on the risk or 
growth of terrorist organizations in the country, I think it's 
important that we examine the challenges of the interim Libyan 
government and the lack of a clear strategy from international 
partners, which contributes to the continued instability.
    Since the fall of Gaddafi in 2011, Libya has witnessed 
pervading and varying levels of instability and civil war 
resulting from the lack of a strong united government. Libyans 
and the international community have witnessed a number of 
interim governments from the General National Congress to the 
House of Representatives and now, since December of last year, 
the Government of National Accord--the GNA.
    However, the GNA is struggling to build legitimacy and 
public support in August. The Libyan House of Representatives 
conducted a vote of no confidence on the new interim government 
and according to political agreement that created the GNA their 
House must approve the GNA cabinet before assuming office.
    Additionally, the GNA has so far been unable to provide 
basic services and address long-term issues in Libya such as 
chronic power and water outages, inflation, a liquidity crisis 
and a lack of security.
    This brings me to the concern today--the rise of ISIL 
inside the country. As we have seen, since its formation in 
2014, ISIL is able to metastasize in places which lack a strong 
civil society or central government and in Libya the group has 
managed to establish itself wherever rival militias have not 
already carved out territories for themselves.
    The group has proven capable of launching domestic attacks 
and Libya's proximity to states such as Tunisia, which struggle 
with the flow of foreign fighters, make the country an easy 
destination for extremists.
    Fortunately, there has been some success against ISIL by 
GNA, which has been aided by U.S. air support. In Sirte, for 
example, anti-ISIL forces have been largely effective in 
driving out militants from the city.
    However, Sirte is just one area and there are still large 
swaths of land in the south and the west in which ISIL is 
afforded freedom of movement.
    Operation Odyssey Lightning and ISIL's defeat will only 
succeed as long as GNA is able to capitalize on these security 
gains and the government's gains.
    The question remains what should our role be, that of the 
United Nations in helping the situation in Libya. I hope during 
the course of this hearing we examine what can be done both 
militarily and diplomatically to combat ISIL but also improve 
their fragile government in Libya.
    With that, Mr. Chairman, I'll yield back.
    Mr. Cook. Thank you, Congressman Keating.
    I now recognize Representative Zeldin from New York for 1 
minute.
    Mr. Zeldin. Thank you, Chairman, and I thank all the 
witnesses who are here for this important hearing. I was 
recently in Iraq and I had a chance to meet with some of our 
commanders on the ground.
    One interesting observation that was made is that here in 
the United States we often talk about Iraq, Syria, Libya in 
that order. The observation that was shared to me is that in 
many respects we should be talking about Libya, Syria, Iraq, in 
that order, and the commanders were explaining why--that right 
now in Iraq we have a strategy to win.
    It's tenuous. It can turn. In Syria, my own personal 
observation--not to put any words into those commanders' mouths 
is that we seem like maybe we have a strategy to run in place 
at best as far as Syria goes.
    But if we eliminated ISIS from Iraq and even eliminated 
ISIS from Syria, what I am concerned about is that Libya right 
now can easily pop up as a new command and control node. So 
thank you for holding this hearing. It's really important for 
us to talk about the situation on the ground in Libya.
    Mr. Cook. Thank you, Congressman Zeldin.
    Congressman Wilson from South Carolina, 1 minute.
    Mr. Wilson. Thank you, Mr. Chairman. I appreciate Chairman 
Ted Poe for convening this timely and important hearing. It is 
sad that since the fall of Muammar Gaddafi in 2011 a dangerous 
vacuum has emerged in Libya with numerous, regional and 
ideological actors competing for power.
    Perhaps more dangerously, the past 5 years has given the 
Islamic State the opportunity to dramatically increase its 
presence and influence.
    I am grateful that recently in August the United States 
began operation Odyssey Lightning, which is aimed at destroying 
ISIS along the Libyan coast.
    As we have seen throughout its existence, ISIS is a cancer 
and when it has presence in a country or region there is only 
oppression and violence. The only way to have a free Libya is 
the removal of ISIS.
    It's important that we have a free and stable government 
for the people of Libya. I urge promotion of the General 
National Congress, a foundation for a democratic transition.
    I look forward to hearing our witnesses. I yield back.
    Mr. Cook. Thank you very much.
    By the way, I just got a flash message from Judge Poe. He 
says Cook, you talk too much, and make sure--by the way, I was 
going to let you talk for 15 minutes each but he said only keep 
it 1 minute.
    So just to let you know that was not my call. I am only 
kidding on that, by the way.
    Without objection, all of the witnesses' prepared 
statements will be made part of the record. I ask that each 
witness please keep your presentation to more--no more than 5 
minutes, and I will introduce each witness and then give them 
time for opening statements.
    Dr. Federica Fasanotti--I hope I got that correct--is a 
non-resident fellow in the Center for 21st Century Security and 
Intelligence of the foreign policy program of the Brookings 
Institute.
    Her field of work and research have focused on Libya, 
Afghanistan, Ethiopia, and Somalia. Thank you for joining us.
    Mr. Thomas Joscelyn is a senior fellow at the Foundation 
for Defense of Democracies and senior editor of the Long War 
Journal, which focuses on counter terrorism and related issues.
    Mr. Benjamin Fishman is an adjunct fellow with RAND 
Corporation's International Security and Defense Policy Center. 
Previously he served as the Director for North Africa at the 
National Security Council.
    Doctor, we will start with you. You have 5 minutes. Thank 
you.

  STATEMENT OF FEDERICA SAINI FASANOTTI, PH.D., NON-RESIDENT 
  FELLOW, CENTER FOR 21ST CENTURY SECURITY AND INTELLIGENCE, 
       FOREIGN POLICY PROGRAM, THE BROOKINGS INSTITUTION

    Ms. Fasanotti. Okay. Chairman Cook and distinguished 
members of this committee, thank you for the opportunity to 
testify today. It's an honor for me to be before you and I'm 
happy to answer to any question you may have for me after.
    Libya's persistent fragmentation is what is most worrying 
today. Internal divisions are the product of decades of 
Gaddafi's reckless governing. He played his citizens off of 
each other and kept them isolated from the rest of the world 
and also deprived them of any political institution that could 
keep the country united and stable after he was gone.
    Libyan history shows that Libyans have long been divided 
regionally and locally. Tribes have a long history of fighting 
one another.
    Today, the Libyan state remains immature and those ancient 
divisions have only gotten worse. At the end of Gaddafi's time 
in power there were from 100 to 300 armed militia groups. Now 
there are, according to a European study, about 1,600 militias, 
gangs and criminal groups.
    U.N. Security Council Resolution 1917 put an arms embargo 
on Libya but today there are more than 20 million weapons 
circulating in the country of only 6 million people. External 
powers who have intervened in Libya have actually worsened the 
polarization and made reconciliation less likely.
    It is well known that countries such as Egypt and Emirates 
have been supporting the toppled government and on the other 
side Qatar and Turkey did the same with the GNC in Tripoli.
    The state of affairs is still going on. Even now that 
thanks to the UNSMIL mediation in Tripoli, it's been 
established a Government on National Accord, presumably 
recognized by most of international actors.
    After the 2011 revolution and international intervention, 
there were few sustainable political options. Social frictions 
increased in the aftermath of the Gaddafi overthrow and the 
country's economic fabric eroded.
    All these only radicalized the insurgency. The situation in 
Libya is so compromised that it can be difficult to provide 
meaningful policy prescriptions.
    But I must emphasize that Libya's dramatic downward slide 
is extremely dangerous for the West and the West should do 
everything it can to ensure improvement of the situation. In a 
territory stretching like Alaska are active various shades of 
Islamic terrorism from the Muslim Brotherhood to al-Qaeda, 
Ansar al-Sharia, ISIS.
    The absence of any state structure has turned the country 
into an incubator of terrorism ready to act as a trigger for 
the whole continent.
    In the nomadic tradition and experience gained during the 
Italian domination, handed down from generation to generation, 
has provided to the Libyans the ability to survive and recover 
strength even after the heaviest defeats.
    In my opinion, there are three key challenges we have to 
address--the security situation, the severe economic downturn, 
and deeply fractured politics. These factors are all 
intertwined and you cannot tackle one if you have not invested 
in the other.
    First, security--Libya is a country at war today. Criminals 
and their networks are increasingly organized. The state police 
are powerless even when they exist and the armed forces no 
longer exists as a coherent entity.
    The problem of criminals and militias is connected to the 
huge amount of weapons. So the first thing to do is try to 
diminish them.
    One policy could be to consider a weapons buyback program 
which has actually been implemented in Afghanistan in recent 
years even though in Libya the situations presents many, many 
different differences.
    In the medium term, it is essential that the Libyan armed 
forces and national security forces and the local police be 
fundamentally revered.
    Second, the economy--before the revolution, Libya's oil-
based economy was functional and pretty stable. Today, it is in 
shambles. The country's gross domestic product fell from $74.76 
billions of dollars in 2010 to $29.15 billions in 2015 in part 
because Libya exported 1.6 million barrels of oil per day in 
2010 and only exported 240,000 barrels of oil per day in August 
2016.
    The inflation is at almost 30 percent. Youth unemployment 
is at 48 percent and the banking system is on the brink of 
collapse. In the short term, Libya must manage fiscal spending 
pressures while restoring and improving basic public services.
    In the long term, Libya needs to develop a more diversified 
market-based economy that goes beyond the oil and gas sector. 
But in the limited term, Libya should invest in new management 
of oil and gas revenues to ensure they are using the best 
interest of the whole country.
    The private sector will only be able to reenter the Libya 
market once the security situation is stabilized. But then it 
can help create sustainable jobs and wealth.
    For the unemployed, targeted intervention should seek 
advanced skills development, vocational training and 
apprenticeship and entrepreneurship programs, something that 
Gaddafi never did but which Libya need in order to have a 
competitive workforce.
    Third, Libya's fractured politics--although there has been 
some progress in forming national unity government in Libya, 
unity is today a rather inapplicable word for the country.
    Friction between various political actors remain high. One 
approach to consider is helping Libyans build a confederal 
state divided into three large regions, for example--
Tripolitania, Cyrenaica, and Fezzan.
    While a united Libya is preferable, of course, it might be 
not possible after years of civil war and entrenched hatreds.
    So I propose something seemingly paradoxical--
deconstructing to construct, which may have the best chance of 
providing Libyans with a deeper stability. Regional governments 
could better protect local interests in security, economic 
reconstruction, and governance.
    The international community should have the Libyans start 
from the bottom, emphasizing local solutions, supporting local 
actors. The system does not exclude the role of the central 
government.
    [The prepared statement of Ms. Fasanotti follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
                              ----------                              

    Mr. Cook. Thank you very much.
    Our next witness, Mr. Joscelyn.

   STATEMENT OF MR. THOMAS JOSCELYN, SENIOR EDITOR, LONG WAR 
         JOURNAL, FOUNDATION FOR DEFENSE OF DEMOCRACIES

    Mr. Joscelyn. Well, Congressman, thank you for having me 
here today to testify before you. Last time I testified on 
Libya specifically was before Homeland Security in April 2011 
and I testified then that we should be wary the jihadis will 
take advantage of the political vacuum and the uprisings and 
expand their presence.
    Little did I know that within just days before I testified 
actually Osama bin Laden had received a memo in his compound in 
Abbottabad, Pakistan that specifically outlined how they were 
going to send operatives who had been freed from custody in 
Iran and elsewhere to Libya to take advantage of the uprisings 
and they were going to establish their beachhead in Libya.
    So al-Qaeda actually very much saw what was going on in 
Libya as an opportunity to expand their operations and they did 
so. I am going to start by talking about the Islamic State, 
which is sort of the hot brand of the moment but then I am 
going to come back to al-Qaeda.
    As you said, Congressman Zeldin, Libya is crucially 
important for the Islamic State. Earlier this year in May, Abu 
Muhammad al Adnani, who was the Islamic State spokesman, was 
killed in August, actually mentioned Sirte as one of the top 
three cities on the Islamic State's priority list.
    He mentioned it alongside Raqqa and Mosul as sort of key 
areas under the organization's control. The good news today is 
that Sirte is on the verge of falling, that basically local 
Libyan forces backed by American air strikes in our Operation 
Odyssey Lightning have absolutely dislodged the Islamic State 
from much of the city and the surrounding areas.
    The bad news is we don't really know, or at least I don't 
know, how many forces the Islamic State has throughout Libya in 
its entirety. There is others that mentioned there are other 
areas in the south, in Benghazi and elsewhere, the Islamic 
State continues to operate.
    My suspicion is that they've basically redeployed some of 
their forces from Sirte, which they are on the verge of losing 
entirely, to other areas in Libya.
    So the key question in Libya is the key question that comes 
in Iraq and Syria as well--what comes next after they lose 
their safe haven. We know that the Islamic State is still able 
to maintain a prolific insurgency, conduct massive terrorist 
attacks within the country and will be able to sort of continue 
to facilitate sort of the movement of its operatives.
    The Islamic State--something I call ISIS fever has sort of 
infected our coverage of jihadi groups. There is no about that 
ISIS has grown substantially and is a big problem. I am not 
discounting that. But it also obscures in some ways what's 
going on in the other side of the jihadi coin with al-Qaeda. 
And I saw a documentary, for example, earlier this year on PBS 
Frontline, which was excellent in many ways, which focused on 
ISIS in Benghazi.
    And if you'd watched this documentary you would have 
thought that the only jihadi game in Benghazi was the Islamic 
State when in fact by our count the Islamic State is probably 
less than 10 percent of jihadi operations in Benghazi 
currently.
    And al-Qaeda has in fact established front groups in Libya 
through which they are operating to this day. Going back to 
2011-2012, remember the rise of Ansar al-Sharia.
    Well, the big meme on Ansar al-Sharia is it really isn't 
al-Qaeda, right. Well, that was all theater. It was all false.
    In fact, when the head of Ansar al-Sharia, Muhammad al-
Zawahi, was killed, al-Qaeda came out with a statement saying 
in fact he had met with Osama bin Laden personally in the 1990s 
and adopted al-Qaeda's methodology then and in fact he was 
personally eulogized by Ayman al-Zawahiri.
    And there are now designations by the U.N. and just 
voluminous material on the fact that Ansar al-Sharia was, in 
fact, and is a front group for al-Qaeda and their operations, 
in particular, al-Qaeda and the Islamic Maghreb.
    But what I'd say to that--an additional point of that is 
there are other organizations in Libya today that are connected 
to al-Qaeda. What we do in Long War Journal is what I call nerd 
analysis where we track operatives and what they are saying and 
propaganda--those sorts of things--to try and detect sort of 
the hints of al-Qaeda's presence--that they are very keen to 
hide, I would say.
    And as we have this hearing today, keep in mind that the 
Islamic State declared its presence in Sirte as a new sort of 
one of its trio of capitals for its operations. Al-Qaeda has 
not done the same thing in Libya or elsewhere. This is by 
deliberate design.
    Al-Qaeda looks at what the Islamic State is doing and it 
said well before even the Islamic State's rise and say if you 
prematurely declare an Islamic State and then you can't hold it 
you have discredited this idea not only amongst jihadis but 
also amongst the Muslim population and therefore al-Qaeda is 
basically looking at the loss of Sirte and is looking at the 
loss of territory in Syria and Iraq and then saying, we told 
you so.
    This is the message we see because we track in Arabic and 
other languages on a day to day basis that's going out right 
now and they are saying it in Libya itself as well.
    And so as that warning was expressed by Ayman al-Zawahiri 
and other al-Qaeda leaders, I have no doubt that they are 
looking to take advantage of the fact the Islamic State is 
losing ground in Libya as well.
    Now, this doesn't mean that al-Qaeda is this sort of 10-
foot ogre in Libya. They are not. But they have taken their 
lumps as well and they've lost quite a bit of personnel in the 
war in Libya.
    But as we move forward in this hearing I just wanted to 
keep in mind that just because group doesn't call itself al-
Qaeda doesn't mean it isn't al-Qaeda and that al-Qaeda is still 
very present in Libya to this day.
    Thank you.
    [The prepared statement of Mr. Joscelyn follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
     
                              ----------                              

    Mr. Cook. Thank you very much.
    Mr. Fishman.

 STATEMENT OF MR. BENJAMIN FISHMAN (FORMER DIRECTOR FOR NORTH 
               AFRICA, NATIONAL SECURITY COUNCIL)

    Mr. Fishman. Thank you for inviting me to appear before you 
this afternoon. I appreciate this committee's attention to 
Libya because I believe it remains an important issue for U.S. 
policy and often it is poorly understood.
    My written testimony goes into further details about this 
but I'd like to highlight just one common misrepresentation. 
That is if we had left well enough alone, Gaddafi would have 
returned to his reformed, albeit peculiar, personality.
    For those on this committee on terrorism who have not been, 
I urge you to visit the Pan Am 103 Memorial Cairn at Arlington 
National Cemetery or participate in the annual memorial there 
on December 21.
    Among other moving tributes, you will see students at 
Syracuse University--current students--reading out the names of 
the victims including 35 Syracuse students who were returning 
home for Christmas.
    When I imagine Gaddafi left in power after facing down an 
uprising in Benghazi, together with his refusal to negotiate 
anything, I see the man capable of ordering the Pan Am 103 
attack, not some humbled strawman--strongman.
    Instead of the fragile state that Libya has become, Libya 
most likely would resemble Syria today and most sides of the 
conflict could be strongly anti-Western.
    I acknowledge that the U.S. and our allies made some errors 
in handling the post-conflict environment in Libya. There 
should have been greater involvement with our Libyan partners 
from day one to help them establish a basic form of governance 
and security after the 2011 revolution.
    But the truth is Libya's leaders didn't want or know how to 
accept international assistance despite our efforts to help 
before the security breakdown started emerging and the civil 
war broke out on 2014 when delivering assistance became less 
viable.
    Now we face a situation where Libya is divided among many 
factions. The good news is that a unity government, the 
Government of National Accord, has been formed and there are 
ongoing efforts to help strengthen that government's legitimacy 
and credibility.
    There is also a dialogue in place to solidify agreement for 
the unity government, and as my old boss, Ambassador Dennis 
Ross, says about the Middle East, when the parties are talking 
directly it strongly reduces the probability of violence.
    The process won't be easy but at least it's underway and 
the GNA has strong international backing from the West and the 
region.
    ISIS and terrorism emanating from Libya remains a current 
serious concern--the primary reason for holding this hearing. 
But here, there is actually good news to report.
    After ISIS built a so-called government--governate in Libya 
in the city of Sirte, establishing their Islamic police and 
executing clerics and other dissidents, local Libyan forces 
began an offensive against Sirte this summer.
    With the support of U.S. air power, Sirte has been 
virtually liberated from ISIS and we have proven repeatedly 
through air strikes and capture operations in Libya that the 
U.S. is capable of doing--capable and interested in sustaining 
these sorts operations.
    The militias from Misrata suffered heavy casualties but 
they took on the mission themselves. Now, instead of ISIS 
directing its fighters to Libya, there's no such governate to 
fall back to in North Africa.
    This is not to say that the threat has been vanquished. 
Terrorism from Libya will evolve and cells will likely be 
established in Libya's southern desert or, more worrisome, the 
foreign fighters who made up the bulk of the Sirte contingent 
may repatriate, posing an especially serious threat to Tunisia. 
That is why we need to continue to expand our support to the 
region's only democracy to emerge from the Arab Spring.
    In sum, Libya faces many serious challenges. But I must 
emphasize it is not Syria. It hasn't seen nearly the scale of 
the violence in Aleppo alone. Nor is it Yemen. Both countries 
pose far greater threats to regional security and to U.S. 
interests in the homeland and overseas.
    I still believe Libya has a chance to realize the vision of 
the 2011 revolution and we should do whatever we can together 
with our allies to assist the Libyans to achieve this goal.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Fishman follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
                              ----------                              

    Mr. Cook. Thank you very much.
    My first question I want to ask is--and I know that you're 
all experts on Libya but I want to get your feelings about 
Egypt because, obviously, Egypt has had problems in the Sinai.
    They've had a history in the past going back quite a few 
years now where they almost went to war or were at war with 
Libya in the past.
    But Islamic extremists in Libya would that cause a military 
or at least a diplomatic reaction from el-Sisi, in your 
opinion? Anybody? Doctor?
    Ms. Fasanotti. Yes. I think that it's possible that, for 
example, Egypt intervene in Libya and not so late. So at the 
moment, I think Egypt is acting any way in Libya--giving arms, 
weapons, money--and General Haftar has been many times in Cairo 
to have meetings with not only el-Sisi but all of the most 
important politicians of Egypt.
    And so I think that it's very--Libya, it's one of the--it's 
the interest of Egypt at the moment and, yes, I think it's 
possible that they can intervene, even in an open way, not just 
like nowadays.
    Mr. Cook. Well, I want to switch gears a little bit because 
we have a NATO conference coming up and some of us, both 
Democrats and Republicans, are part of that NATO Parliament.
    And in the past, the Mediterranean members of NATO have 
been very, very nervous about what went on, obviously, in 
Tunisia and then Libya.
    Now, I know that subject is going to come up. Do you have 
any advice on how we can handle that in terms of NATO being 
involved in this since they're very, very concerned about the 
refugee situation but also different terrorist groups just to 
the south of them?
    Ms. Fasanotti. Well, it's difficult to answer to this 
question because it's--the situation is so articulated and so 
complex that every answer would be not enough.
    But if you analyze--I think that we should start analyzing 
the situation right now in Cyrenaica, for example, which is 
strictly connected to Egypt, and in many months--not so many, 
Cyrenaica has now a kind of military government very similar to 
the el-Sisi one so which is, at the same time, different from 
the Tripolitania one--the GNA.
    Mr. Cook. Let me jump around a little bit more because, you 
know, I, for one, and I think a lot of the members of the 
committee are very, very nervous about what's going to happen 
about al-Qaeda and I think it's going to be a huge target 
because it's oil-rich and I just--looking at a map and reading 
some of Churchill's commentaries on World War II at El Alamein, 
which is Egypt.
    But the geography seems to be against the terrorists, if 
you will, in terms of outside allies and what have you. Can you 
comment on that as to how al-Qaeda, anybody, could develop 
there because they've obviously had a setback there, whether 
this will continue. Yes, sir.
    Mr. Joscelyn. Well, I think the fact of the matter is, 
going back to 2011 we've documented both al-Qaeda and then ISIS 
using Libya facilitation networks to influence the situation 
all the way through Egypt into the Sinai--in fact, arms 
shipments, that kind of thing, where they've actually been able 
to get through, even though the Egyptian government has cracked 
down on a number of occasions and I will give you one stunning 
example.
    There's a guy named Hisham al-Ashmawy who is actually a 
former Egyptian special forces officer who is actually one of 
the biggest al-Qaeda operatives in North Africa. If you meet 
with the Egyptians, they know, certainly, very well who Ashmawy 
is because he's actually targeted for assassination some senior 
Egyptian officials including the chief prosecutor for the 
Egyptian state was killed by him.
    This is a very dangerous guy. He operates in Libya all the 
way into Egypt and, in fact, the Islamic State blames him for 
kicking them out of Derna because Ashmawy actually organized 
the jihadi resistance in Derna to the Islamic State and 
actually, the Islamic State put out a most wanted poster for 
him because they want him dead. That's how much--how dangerous 
he is.
    So here's a guy and his network, who is both dangerous to 
both the Egyptian state and the Islamic State and is in fact an 
al-Qaeda operative. So I think that tells you quite a bit about 
what he's doing.
    Mr. Cook. Thank you.
    If you'd be so kind, if you have any background literature 
on that you could provide to the committee----
    Mr. Joscelyn. Sure. Absolutely.
    Mr. Cook [continuing]. And we can distribute to the 
members.
    Mr. Joscelyn. Egyptians will know very well who he is.
    Mr. Cook. Thank you very much.
    All right. I'm going to turn to the ranking member, 
Congressman Keating, for 5 minutes.
    Mr. Keating. Thank you.
    Earlier, this month General Haftar seized three oil 
fields--oil terminals--major oil terminals and they're just 
about 50 miles east of Sirte.
    Now, what do you suppose--maybe Mr. Fishman could lead 
this--what do you suppose this might mean in terms of the peace 
process?
    What about the signed deal to resume oil exports, in 
particular, in terms of these actions and do you think 
there's--I was in the--I was in Tunisia just a few months ago 
discussing things with our Libyan team and I'm just curious 
about what your feelings are about General Haftar, just going 
on--you know, going along on his own or any option about him 
working with us instead of independently.
    I know there's a lot of questions but basically his action 
this month--the oil terminals--what it means in terms of the 
deal to resume oil exports and how does it affect the peace 
process and do we ever get him to somehow cooperate?
    Mr. Fishman. Thank you. And it also relates to the--Mr. 
Cook's questions about Egypt because Egypt has a prominent role 
in influencing General Haftar.
    To summarize and perhaps to simply--the greatest--the 
greatest asset to ridding Libya of terrorism, ISIS, al-Qaeda, 
whatever the threat may be, is to form a stable and unified 
government and that's what our administration has been trying 
to do for the last 3 years--plus years.
    That's what the U.N.-backed process has been trying to do 
and that's what our major European and regional allies have 
been trying to do with this GNA.
    The problem is with Haftar and some of his allies he's 
been, shall we say, the main opponent of forming a unity 
government because he's holding out for some high-ranking post 
or some regional position within that government and, 
obviously, the oil and the seizures of the oil fields give him 
more leverage to hold out further.
    So in summary, Haftar is an obstacle. It's very hard to 
influence him. That's especially since he's made recent 
military progress. The problem is the Western factions--and we 
can go into this in more detail--are adamantly opposed to any 
of his contributions and the rubber meets the road where Egypt 
continues to support him.
    And so in brief, I just--we need to find a formula through 
our Egyptian allies to help negotiate some kind of----
    Mr. Keating. Thank you. Mr. Joscelyn.
    Mr. Joscelyn. The question you asked, Congressman, is the 
one that I knew was going to be asked at this hearing and the 
one that I think is the trickiest one to answer for these 
reasons.
    I actually agree with a lot of what Mr. Fishman said. I 
think the simple fact of the matter is that Haftar is in fact 
one of the key guys who has taken the fight to the jihadis in 
Benghazi and Derna and elsewhere.
    They complain about him all the time so I know he's doing a 
good job with killing them, you know. Unfortunately, I think 
his bombing campaigns also are indiscriminate at times, you 
know, and you can see areas of Benghazi and elsewhere that are 
sort of levelled.
    You know, we do see reports, too. For example, there was a 
helicopter that was down in Benghazi earlier this year. There 
were conflicting reports about whether or not it was actually 
shot down by the jihadis or crashed on its own accord.
    Be that as it may, it confirmed that French special forces 
and Western special forces are also involved with him. It's not 
just the Egyptians but there are other Western forces that are 
there and so this becomes very tricky.
    But by the same token, on the other side of the coin, what 
Mr. Fishman has outlined I think is right--that he's the 
political wild card and if you want a stable Libya in the 
future and you want to actually try and figure out a way to 
basically tamp down this and provide a long-term political 
solution for the jihadi insurgency, then he provides down side 
risks in that regard as well.
    Mr. Keating. Okay. I just had a quick question, having just 
been there.
    Tunisia is extremely fragile. Could you tell me why you 
think, from a pro rata basis or per population member basis, 
that it has the highest participation in foreign terrorist 
fighters?
    Is it economic? I've heard on the ground different theories 
as to why that country of all, the last remaining democratic 
country there, why that's so involved and so high a proportion 
of foreign terrorist fighters.
    Mr. Joscelyn. It's going back to the height of Iraq war. 
Both Tunisia and Libya on a per capita basis contributed more 
foreign fighters to the fight--jihadis--than basically anybody 
and it's a complicated story as to why.
    I think radicalization, of course involves many different 
factors. But the bottom line is--and I wouldn't underestimate 
this--there is a facilitation network in Tunisia that they were 
able to use to send these fighters at different various 
facilities and, you know, some of the mosques have been 
radicalized and have given in to this sort of ideology, and 
that was a--played a major role in this.
    Now, you know, just to go back to my original opening 
statement. Here in Tunisia is a great example of how AQIM, al-
Qaeda in Islamic Maghreb and al-Qaeda play the Tunisian game.
    They had group called the Uqba bin Nafi battalion, which 
was in fact an al-Qaeda front group--AQIM front group--that 
fights there.
    They had some losses when it comes to the Islamic State 
but, again, this is another time when an organization didn't 
use the al-Qaeda brand name, was actually answering up the 
chain of authority to al-Qaeda and, you know, initially was 
misidentified as just a local group.
    And the reason why I say that's important is because we 
shouldn't let them play the local game. Don't allow al-Qaeda 
jihadis or any jihadis to pretend that they represent Tunisian 
or they represent Libyans or any of them.
    That's why it's important to expose them because their game 
is to say no, no, we represent the locals here and our--big 
part of our strategy has to be say, no, you don't.
    Mr. Keating. Okay. Thank you. I yield back.
    Mr. Cook. Congressman Zeldin.
    Mr. Zeldin. Thank you, Mr. Chairman.
    One of the many reasons why we have the greatest military 
in the world is our use of the after action report where we 
will very specifically give three sustains and three improves.
    As we look back on these last few years of U.S foreign 
policy in Libya, whether it is tactically, operationally, 
strategically, if you can share what's working--specifically 
what's working that we need to continue and/or specifically 
what are we not doing that we should be or maybe what we are 
doing but not doing it well.
    So I want to turn over my 4\1/2\ minutes to you to talk 
specifically about what we are doing that's working and what we 
are--what we need to improve upon.
    Mr. Joscelyn. Okay, I will start.
    You know, I don't know if I can give you three and three 
but I'd say, you know, we do--we should find some encouragement 
in the recent military efforts in Sirte, for example. I mean, I 
think that that coalition that came is relying primarily on 
Libyan local forces from the Sirte and militiamen to take the 
fight to Islamic State that has worked to a large degree.
    I would say there that although the local Libyan forces are 
doing the bulk of the fighting on the ground, I'd point you to 
a Washington Post article that came out recently that said, for 
example, the American special forces are in fact there helping 
them and if you look at the press reporting very carefully this 
is sort of the secret of Libya that I don't think is really 
emphasized enough.
    There are probably four Western nations that have special 
forces footprints inside Libya today fighting. That's the U.S., 
the U.K., Italy, and France. And so this is very much a sort of 
special forces war and once you started thinking about it that 
way it becomes a little bit different.
    I think that we've been very good at sort of, you know, 
recently combatting Islamic State but my big concern is in the 
long run how do we have something--you know, if you go back to 
counter insurgency in Iraq and Syria, Congressman, where you 
just visited in Iraq, it's clearing and then holding.
    And, you know, this gain over the long run, you know, 
clearing is a lot easier sometimes than is holding, you know, 
and this is where building long-term, you know, established 
political institutions becomes the key thing and I don't know 
at this point--we've made some progress with the GNA--the 
Government National Accord--and others and they deserve more 
support. But I'm skeptical about what the long-term holds in 
that regard.
    Mr. Zeldin. Anybody else like to add?
    Mr. Fishman. I think I agree with Thomas about the CT 
effort that has been made recently and I point back to the 
targeted capture operations against Abu Anas al-Libi and Abu 
Qatada who is responsible for the--one of the men responsible 
for the attack on our diplomatic facilities.
    That brings up a sensitive issue because I think where 
we've been less successful in interacting across the region 
in--particularly in conflict zones is gaining access to the 
right people to do the right political reporting and 
implementing programs that these fragile governments need and 
that, unfortunately, has played into the politics back here but 
also more--there are people in the government whose careers are 
built in serving in conflict zones and we visited them in the 
military and civilian roles.
    And one of our deficits in Libya particularly--you just 
mentioned that you visited our Libya team in Tunis. Well, 
they're in Tunis and they don't have access to--they have phone 
access to Libyans. They have access to Libyan expats. But 
they're not on the ground.
    They're not--they're not feeling the heartbeat of Tripoli, 
and until we can solve this issue, I think, of getting our 
diplomats to find the right balance between serving in hardship 
and moving effectively, we are not going to be able to, I 
think, serve as effective interlocutors as we could.
    Our European counterparts do a better job of it because 
they're more low profile. But, certainly, they don't have the 
political clout that needs to be happening.
    Mr. Zeldin. Doctor, we only have a few seconds left. Was 
there anything, very quickly, you wanted to add before we ran 
out of time?
    Ms. Fasanotti. Yes. I think we should try to understand 
much, much better the tribes and the internal divisions of 
Libya because--can I--can I go?
    Mr. Zeldin. Finish your sentence. Go ahead.
    Ms. Fasanotti. Even though it's perfectly right, the idea 
of controlling the terrain with military operations and so on, 
the problem still exists and it's a problem that exists since 
centuries. And now without any kind of government it's 
impossible to solve otherwise. So I think this.
    Mr. Zeldin. Thank you. Thank you for the extra time, 
Chairman.
    Mr. Cook. Thank you very much.
    Congressman Higgins.
    Mr. Higgins. Well, a country of 6.5 million people, about 
160 tribes, 1,600 militias, about 90 percent of the economy is 
oil--plummeting oil prices, no central government. What a mess. 
I mean, really, what--and then you have the Islamic State there 
as well.
    These militias are made up, presumably, of--and it's a 
majority Sunni Muslim country. So they're probably al-Qaeda 
affiliates? Enlighten me.
    Mr. Joscelyn. I mean, the--the al-Qaeda groups are--you can 
distinguish them from the vast majority of the militias. The 
militias a lot of times--and this is where I objected to some 
of the al-Qaeda groups being called militias back in 2011 and 
2012 because they weren't.
    You know, they were--they were very insidious. No, there 
are a lot of militias that do local security work, which is 
what you're talking about, which are a much more local power 
base and this is where Libya is a fractured society, as the 
doctor said.
    Mr. Higgins. Wait a minute. How do you--how do you 
distinguish between what militias do in Syria, for example, and 
militias that are a local security group?
    Mr. Joscelyn. Well, no. This is--this is part of the 
challenge, absolutely. But I would say this. What I'd say is of 
the--I think 1,600 is the number you used, something along 
those lines.
    Mr. Higgins. That's what----
    Mr. Joscelyn. Right. Somewhere along those lines. We--I 
mean, obviously, we don't have perfect information on Libya. 
I'm not claiming I do.
    But we track it very carefully and I can tell you that, you 
know, we don't see--you know, the vast majority of those 
militias as far as we can tell from open source information 
appear to be sort of local security groups. They're not 
involved in sort of the jihadi insurgency activities.
    Now, Congressman, to your point, however, you know, going 
back through time, some of the militias did get entangled with 
Ansar al-Sharia and others and that's where it became complex 
in Benghazi and elsewhere.
    But, you know, I think if you'd taken that 1,600 number, my 
guess is, and it's an informed guess, most of those are local 
security forces.
    Mr. Higgins. Okay. But it's still a country of only 6.5 
million people so it's relatively small. It is--you don't have 
a Shi'a-Sunni divide as you have in Syria, as you have in Iraq, 
because 97 percent are Sunni Muslims.
    What are the dividing lines? These tribes or----
    Ms. Fasanotti. It's--can I? It's a question of history and 
ancient times, and of course, the tribes are still--if you--if 
we analyze the tribes one century ago, we can see that they are 
still in the same place of the 1926, for example, and the 
frictions of those tribes are still the same because, for 
example, Misrata, which is a tribe of the Tripolitania, and 
Zintan, which everyone knows because Zintan militias, they are 
still fighting. So nothing has changed in this way.
    Mr. Higgins. Who finances the militias?
    Ms. Fasanotti. Sorry?
    Mr. Higgins. Who finances the militias?
    Ms. Fasanotti. Some--many, in many ways. They can finance--
--
    Mr. Higgins. They, presumably, tax the people over which 
they are providing security for?
    Ms. Fasanotti. Maybe. Yes.
    Mr. Higgins. So that's a source of revenue?
    Ms. Fasanotti. Yes.
    Mr. Fishman. Actually, I don't mean to interrupt but----
    Mr. Higgins. Jump in.
    Mr. Fishman [continuing]. Many of them are financed from 
the state itself and that's the paradox of how to solve this 
problem because after the----
    Mr. Higgins. Solve the problem to what end?
    Mr. Fishman. Getting the militias to form up in a coherent 
security service that answer to a state authority and instead 
this is called DDR, Defense, Deconstruction--or Demobilization, 
Disarmament, and Reconstruction--sorry--and it's a common 
process in counter insurgency and it just hasn't taken off in 
Libya in part because there were poor decisions early on by the 
Libyan government to incorporate the militias as, basically, 
state actors, and all the while they are earning their salaries 
effectively holding the state hostage to persist in this--the 
civil war.
    And so you're--I just want to make one more point about 
your Islamist association with the militias. The civil war was 
initiated by a large faction that's pro-Islamist and a large 
faction that's anti-Islamist.
    It's implying things but in general and so I don't know 
whether the percentage is 50/50, 60/40, 70/30, whatever. But a 
lot of those militias reject the premise of Islamists and those 
primarily are the ones who helped kick out ISIS from Sirte.
    Mr. Higgins. Thank you, Mr. Chairman.
    Mr. Cook. Thank you. Congressman Perry.
    Mr. Perry. Thanks, Mr. Chairman.
    Mr. Fishman, you're--are you with RAND now?
    Mr. Fishman. I'm an adjunct there so I'm not officially 
part of the organization. I just help them with various 
projects.
    Mr. Perry. Okay. And before doing that, you were at--were 
you at State?
    Mr. Fishman. I was at the International Institute for 
Strategic Studies.
    Mr. Perry. Okay. And before that State?
    Mr. Fishman. The NSC at the White House, then at State.
    Mr. Perry. Okay. And before that?
    Mr. Fishman. State.
    Mr. Perry. What's that?
    Mr. Fishman. State Department.
    Mr. Perry. Before that State Department.
    Mr. Fishman. Mm-hmm.
    Mr. Perry. How--when did you start at the State?
    Mr. Fishman. 2009.
    Mr. Perry. 2009. Before that?
    Mr. Fishman. I was in graduate school at Washington 
Institute for Near East Policy.
    Mr. Perry. Okay. So I'm looking through your submission 
here and it says misrepresentation one--we should never have 
gone into Libya in the first place. The threat was not 
significant to the U.S. or the Libyan population. Gaddafi could 
have been placated. That's misrepresentation one, right?
    Mr. Fishman. That's what I submitted.
    Mr. Perry. And then misrepresentation two--NATO and the 
U.S. abandoned Libya after the intervention. There should have 
been a stabilization force assembled to restore security. 
That's two, correct?
    Mr. Fishman. Correct.
    Mr. Perry. Makes it easier. So just out of curiosity, what 
was your position regarding the United States intervention, if 
you want to call it that, in Iraq?
    Mr. Fishman. In Iraq?
    Mr. Perry. Yes.
    Mr. Fishman. You mean in 2003?
    Mr. Perry. Yes.
    Mr. Fishman. I was--contemporaneously I was supportive of 
the intervention in Iraq.
    Mr. Perry. I'm sorry. I didn't--you what?
    Mr. Fishman. I supported it as a college student.
    Mr. Perry. You supported the intervention in Iraq?
    Mr. Fishman. Yes.
    Mr. Perry. Okay. And so you're supporting the intervention 
in Libya because you're saying that there's a 
misrepresentation. We should have never gone into Libya in the 
first place.
    But I'm wondering if there was a plan post-Gaddafi--if 
there was a plan for governance at State, at the National 
Security Council for the follow-on operation in Libya once 
Gaddafi was gone.
    Mr. Fishman. There were many, many discussions at both an 
agency level, interagency level, international level about how 
to help stabilize the Libyans.
    Mr. Perry. But was there a plan? Not just a discussion but 
was there a plan? This is, what, 2000--this--essentially the 
overthrow of Gaddafi occurred fall of 2011, right?
    Mr. Fishman. Yes.
    Mr. Perry. So it had been going on----
    Mr. Fishman. Yes.
    Mr. Perry [continuing]. It had been leading up to that for 
some time but was there a--and we were involved and----
    Mr. Fishman. We had stabilization planning documents and 
the nature of the fall of the regime led to the fact that those 
plans had to change on the fly.
    Mr. Perry. Were you--were you privy to those plans?
    Mr. Fishman. Some, but not all of them.
    Mr. Perry. So are you familiar with Presidential Study 
Directive 11?
    Mr. Fishman. You have to remind me.
    Mr. Perry. Okay. So it's a classified document. You can 
find some open source information. I'm happy to provide what we 
know for you.
    But it's essentially changing decades of United States 
policy in favour of authoritarian rulers such as Gaddafi for 
the sake of stability in the region in North Africa and the 
Middle East and partnering with the--with the local population 
in overthrowing those governments in--for the sake of democracy 
and partnering specifically with the Muslim Brotherhood in that 
effort.
    Are you familiar with that? Did that play into your----
    Mr. Fishman. I don't recall any such directive and I recall 
a similar study about supporting reform in the region. But it 
was certainly----
    Mr. Perry. Well, what drove who you partnered with or who 
you worked with? What determined that effort? How was that 
defined for you?
    Mr. Fishman. In the Libya circumstance?
    Mr. Perry. Sure. Libya is one of--by the way, one of the 
target countries in Presidential Study Directive 11--Libya, 
Syria, Yemen, Egypt. All the failed ones are delineated and 
specifically named, according to open source.
    Mr. Fishman. I think that your--if I recall correctly, and 
it was several years ago, that document referred to how we can 
support gradual change for institutional reform in countries 
that you named who we thought assessed to be long-term threats 
to stability if you--if the authoritarian regimes continued as 
they were.
    And you saw as a result we didn't push--we didn't push 
Tunisia to rid themselves with Ben Ali. The Ben Ali regime 
portrayed it that those offenses----
    Mr. Perry. I'm sorry, sir. My time has expired. Thank you, 
Mr. Chairman.
    Mr. Cook. Thank you very much.
    Congresswoman Kelly.
    Ms. Kelly. Doctor, in your statement you discuss 
restructuring the Libyan armed forces, national security forces 
and local police.
    How do you envision countries like the United States or 
other outside actors assisting in this effort without--I know 
there was a comment we do have special forces there without 
committing more and more and more troops. What military ideas 
do you have?
    Ms. Fasanotti. Well, I--still, I don't have any clear idea 
of this. Mine is just a suggestion, knowing the country, and so 
of course, in my opinion we should intervene in a more 
systematic way because you cannot--I think that security, like 
economy and politics, are profoundly restricted to the other.
    So I think that we have to invest, first of all, as I was 
telling before, in the security, of course, because if you 
don't have security you cannot work.
    But on the other side, we have to invest even in all these 
incredible divisions that Libya has because Libya is not only 
what we talk right now about or we said about Islamist, non-
Islamist, militias, different militias, militias in Tripoli, 
militias in Benghazi, in Derna and so on. But there are the 
tribes and then there are diversity at an ethnic level.
    So Arabs--because we talk about Shi'a and Sunni but here we 
have atavistic divisions in terms of ethnicities. So Arabs were 
the Bedouins and Berbers, Tuareg, Amazigh, and Toubou.
    So in this way, I think, yes, of course we should invest in 
the disarming, for example, because we cannot have, frankly, 6 
million people and almost at minimum 20 million weapons.
    Ms. Kelly. Do you think outside forces, depending on who it 
is, would further divide Libya? Because you talk about all the 
tribes and the different groups already. Do you think it's the 
United States that should intervene or----
    Ms. Fasanotti. This is a very difficult answer because 
Libyans are really particular, even in this way, because they 
do not want to be touched by anyone.
    They want, of course, to decide for themselves and I can 
understand them, of course. And so all--what I see is that all 
this continues in interventions open or--not opened by the 
international community. At the moment, did not obtain 
anything. So----
    Ms. Kelly. Welcome to jump in.
    Mr. Joscelyn. Oh, geez. This is a very complex question. I 
don't know--I don't have all the answers. I will just say this.
    The--on the other side of the coin, when you talk about 
Western intervention or assistance, I will tell you what the 
al-Qaeda jihadis are doing, which is that they're organizing 
themselves against that.
    And so what they in their propaganda, and we've seen this 
as a major theme, they're holding up Omar Al-Mukhtar, who was--
in the first half of the 20th century resisted Italian, you 
know, forces in Italy.
    Ms. Fasanotti. Yes, a hero.
    Mr. Joscelyn. Yes, hero. What's happening now is, and I see 
this in the videos--I see this in the magazines that they put 
out in Arabic and in different languages--al-Qaeda is trying to 
portray him as sort of this ancestor of theirs in Libya and 
they're trying to rally forces around his image to say that 
they're also resisting sort of Western interference.
    So, for example, when this French--this helicopter carrying 
three French special forces officers went down in Benghazi 
earlier this year, immediately that became a flashpoint where 
the so-called Grand Mufti of Libya--he's not really but that's 
how he--what he's called--immediately comes out and says this 
proves that France and the West is intervening here in Libya 
and we need to rally our forces on the jihadi and Islamist side 
against any outside interference.
    And so it's a complex dynamic. That's only one factor, of 
course, in all of this. But I can tell you that there are 
people on the other side thinking about that and never to 
forget that.
    Mr. Fishman. Just in 2 seconds--that's why our planning, as 
well as it was done, ran into easy or specific opposition by 
the interim leaders, as I noted at the beginning, whether it 
was on security issues or economic issues, and legally you 
can't deploy troops for security reasons.
    You can't deploy technical assistance if the government 
doesn't sign an agreement and much like the Iraq issue with the 
withdrawal of our troops, we didn't have agreement from the 
Libyans.
    Ms. Kelly. I yield back, Mr. Chair.
    Mr. Cook. Thank you very much.
    What I want to do is thank the panellists for being here 
today. I want to thank the members and just want to also second 
my prayers and thoughts are with Judge Poe, the chairman, and 
hope that he gets better.
    And I want to thank the member from Buffalo and the one 
from Massachusetts for being civil today toward each other, 
knowing that there's a big game at stake. Counsellors are 
standing by and I've given them a copy of Kumbaya, which they 
will memorize before the next hearing.
    But I do want to thank everybody, and right now this 
subcommittee is adjourned. Thank you.
    [Whereupon, at 3:54 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
